<html>
<title> - U.S. POLICY TOWARD POST-ELECTION DEMOCRATIC REPUBLIC OF THE CONGO</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



   U.S. POLICY TOWARD POST-ELECTION DEMOCRATIC REPUBLIC OF THE CONGO

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2012

                               __________

                           Serial No. 112-130

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-652 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TOM MARINO, Pennsylvania             KAREN BASS, California
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Donald Y. Yamamoto, Principal Deputy Assistant Secretary, 
  Bureau of African Affairs, U.S. Department of State............     7
Daniel B. Baer, Ph.D., Deputy Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State...    19
Sarah E. Mendelson, Ph.D., Deputy Assistant Administrator, Bureau 
  for Democracy, Conflict, and Humanitarian Assistance, U.S. 
  Agency for International Development...........................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Donald Y. Yamamoto: Prepared statement.......................     9
Daniel B. Baer, Ph.D.: Prepared statement........................    21
Sarah E. Mendelson, Ph.D.: Prepared statement....................    27

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Prepared statement....    56
Question submitted for the record by the Honorable Russ Carnahan, 
  a Representative in Congress from the State of Missouri, with 
  written response from the U.S. Department of State and USAID...    59
Material submitted for the record by the Honorable Donald M. 
  Payne, a Representative in Congress from the State of New 
  Jersey.........................................................    61
Material submitted for the record by the Honorable Christopher H. 
  Smith..........................................................    63

 
   U.S. POLICY TOWARD POST-ELECTION DEMOCRATIC REPUBLIC OF THE CONGO

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:17 p.m., in 
room 2172, Rayburn House Office Building, Hon. Tom Marino 
(member of the subcommittee) presiding.
    Mr. Marino. Good afternoon, ladies and gentlemen. And to 
our guests, thank you for being here, and to our constituents 
and friends out in the audience, thank you for being here as 
well.
    Our hearing today will examine U.S. policy options for 
dealing with the ongoing crisis in the Democratic Republic of 
the Congo, one of the priority countries in the United States' 
Africa policy as identified by the administration and as 
confirmed by congressional legislation and oversight over the 
past several years.
    This country is two-thirds the size of Western Europe and 
borders nine African countries. Its problems extend well beyond 
its borders--and I should insert, Chairman Smith is unavoidably 
detained, and he asked me to fill in for him, so this is the 
chairman's statement that I am reading.
    The subcommittee last examined the situation in the DRC in 
a hearing in March of last year when the storm clouds were 
gathering in advance of the November elections. The DRC is now 
struggling with the aftermath of those elections. Opposition 
political parties and civil society, especially the Catholic 
Church, appear unwilling to accept the results of the 
Presidential and legislative elections. Opposition leader 
Etienne Tshisekedi received 32 percent of the votes, but he 
believes he was cheated out of the votes that would have made 
him the winner in the elections. He has staged a Presidential 
swearing-in ceremony and announced that he will form a 
government. He also has called on supporters to march with him 
to government headquarters. However, government armed forces 
have surrounded his home since the Presidential results were 
announced on December 9th, and even his aides have been 
prevented from meeting with him.
    Suspicion persists that this election was manipulated in 
favor of incumbent President Joseph Kabila. The Carter Center, 
who observed the vote, as well as the United Nations 
Organization Stabilization Mission in the DRC and most of DRC's 
civil society, all cast serious doubt on the announced outcome 
of the election. According to the Carter Center, ballots were 
missing in some areas while results for Kabila in other areas 
were deemed unrealistic. Calls for new elections not only 
continue but appear to be growing in intensity.
    Perhaps government intimidation has minimized any uprising 
by a discontented population, or perhaps the Congolese have 
accepted that Kabila will do whatever it takes to ensure his 
victory. It could be that poverty and a lack of information 
among the population has restrained the widespread resort to 
protest. Still, there is significant instability throughout the 
country. This calls into question the long-term stability of a 
country that is critical to U.S. interests, which includes the 
continued flow of strategic minerals.
    Congolese have reason to be skeptical that they will ever 
have a stable government that functions on their behalf. There 
has been one crisis after another since independence in 1960, 
caused by the selfish actions of predatory leadership. An 
estimated 4 million Congolese lost their lives in two wars from 
which they are still recovering. Most Congolese remain poor, 
hungry, and in danger of violence. Their government cannot 
provide the most basic necessities for their families. Public 
administration is virtually nonexistent, with civilian servants 
demanding payment for even the most routine services.
    MONUSCO is handling security, and the World Health 
Organization is dealing with the country's public health 
issues. The challenge for the international community is to 
help build the capacity and the political will of the Congolese 
officials to assume the responsibility for caring for and 
protecting their citizens.
    Since November, violence attributed to the Congolese 
military, the Rwandan rebel group, the Democratic Force for the 
Liberation of Rwanda, and local militia, have caused more than 
100,000 Congolese to become internally displaced persons or 
refugees. Local vigilante groups have clashed with the Rwandan 
rebels in North Kivu Province and displaced about 75,000 people 
from 30 villages in North Kivu Province. Similar clashes in 
Ituri and northern Katanga have had a serious impact in those 
areas as well.
    This raises serious concerns for a potential humanitarian 
crisis. Women continue to be targeted for abuse in the DRC. A 
study that recently appeared in the American Journal of Public 
Health concluded that an average of 48 women and girls are 
raped every hour in this country. So before our hearing today 
has ended, more than 100 females in the DRC will have been 
raped.
    However, there remains hope for the DRC despite the current 
crisis. Even during the worst stages of the global financial 
crisis, the World Bank was predicting that the DRC's economy 
would grow by 7 percent annually over the next several years, 
making it one of the world's fastest growing economies. At the 
local level, Congolese reportedly have developed coping methods 
for an absent government. Women have developed rotating credit 
systems to compensate for an inaccessible banking system, and 
farmers have banded together to rent trucks to jointly take 
their product to market.
    Since the early days of Congolese independence, the United 
States has been involved in the DRC and continues to play a 
significant role there. In Fiscal Year 2011, economic support 
funds were targeted to support the Government of Congo 
stabilization and recovery program through support to 
community, recovery, reconciliation, conflict mitigation 
resolution, and the extension of authority. International 
military education and training funds focus on training 
Congolese officers on military justice, human rights, and joint 
operations.
    The United States also provides significant humanitarian 
assistance to the DRC. The United States provided bilateral aid 
to the DRC of more than $205 million in Fiscal Year 2008, $296 
million in Fiscal Year 2009, $282 million in Fiscal Year 2010, 
and $215 million in Fiscal Year 2011. The Obama administration 
requested more than $262 million for Fiscal Year 2012.
    Our hearing today will allow the administration agencies 
primarily responsible for the United States' relation with the 
DRC to report on what our Government can and will do to help 
the world's 12th largest country weather this crisis.
    Before I introduce our witnesses this afternoon, all full 
statements by members and our panelists as well as other 
related statements or materials will be inserted into the 
record.
    I defer now to my colleague, Ranking Member Congressman 
Payne.
    Mr. Payne. Thank you very much, Chairman Marino, and let me 
commend you for pinch-hitting for Chairman Smith, who is, as 
you know, a very strong advocate of human rights. And during 
all of my hearings over the last 20-some years he has been at 
just about every hearing. So let me just say that this is a 
very timely hearing, and we are certainly convening this at the 
right time.
    Since the November elections in the Democratic Republic of 
Congo, bipartisan members of both the House and the Senate have 
called for increased U.S. involvement to stave off violence, 
death, and the loss of the democratic gains achieved since 
2006, the last election that was held. Some of us have been 
calling for increased involvement for much longer. As a matter 
of fact, it was last year on International Women's Day that we 
began our subcommittee business for the 112th Congress with a 
hearing on the DRC. Witnesses on the private panel warned that 
there will be continued crisis and that the election would be a 
difficult task to cover. The warning was clear and precise. To 
quote Mr. Affleck, ``If the situation continues in the same 
direction as it is now, Congo will have deeply flawed elections 
in November that will not meet minimum international standards 
and will be neither free nor fair.''
    Mr. Chairman, in the wake of that hearing, you and I, Mr. 
Smith, along with Mr. Carnahan, Mr. Fortenberry, Ms. Bass, Mr. 
Wolf, Mr. McDermott, Mr. Crowley, and Mr. McGovern sent letters 
to the White House asking that the President appoint a special 
envoy--to reappoint a special envoy. Last month the 
administration announced the appointment of Ambassador Barrie 
Walkley as Special Advisor for the Great Lakes and the DRC. 
While this is a great step in the right direction, the 
appointment came weeks after the flawed election, and in the 
midst of a political crisis that could have potentially been 
avoided.
    As an adviser instead of an envoy, it is not clear that 
Ambassador Walkley will have the same political support and 
resources necessary to succeed in his very challenging mission.
    Only the second election since emerging out of the brutal 
civil war, the November elections were supposed to represent a 
significant milestone along with the DRC's path toward 
stabilization. Instead, the elections highlight the severe 
political crisis that is the undercurrent of all other ailments 
that plague the Congolese people. It is a crisis that did not 
start last November or even over the last few decades. The 
crisis in the Congo stems from its colonial history.
    As we all know, the Congo was the personal province of the 
King of Belgium, solely his, and he took resources and had a 
brutal rule where amputations were started, which we saw in the 
recent wars in the east of Africa. But that started under King 
Leopold, and we still see remnants of it today. So many of the 
things that began many years ago have impacts today, and the 
Congo went through many crises. When it became independent, 
there was only one college-trained person in the entire country 
when Belgium just left. So the country started way behind.
    Then regional conflicts, when Mr. Kabila came after 
Mobutu's terrible reign, so the country never really has had an 
opportunity to develop. Then we had the Rwandan and Ugandan 
help of Kabila to get into office. Then, after that, the first 
African world war where Angola and Namibia and Zimbabwe fought 
with the Congo against Uganda and Rwanda. So I think it is 
amazing that even though things are very bleak, this country 
still continues to move forward. And I think that we have to 
look at the determination of the Congolese people, in spite of 
all of the terrible legacies that have been laid upon them, 
that they continue to move forward.
    So now in the wake of the elections, the Congo is at a 
critical junction in the history, as they move toward peace and 
stability.
    The legitimacy of the Kabila regime has been questioned and 
the future of democracy hangs in the balance. Joseph Kabila was 
sworn into office December the 20th. Only one head of state 
attended, Robert Mugabe of Zimbabwe. Ambassadors from foreign 
nations, including the United States, were present at the 
swearing in. Rejecting the results, opposition leader 
Tshisekedi held his own swearing in under virtual house arrest 
in his garden.
    In December, Chairman Smith and I called on the 
administration to work with our partners in the international 
community and an inclusive group of Congolese stakeholders to 
conduct an independent review of reported electoral 
irregularities, to help mediate the crisis to avoid further 
political unrest.
    With additional protests planned, we hope that a dialogue 
is underway, and we must remember that as the political 
standoff continues to unfold, the people of the Congo continue 
to suffer. They suffer at the hands of armed groups that rape 
and pilferage to instill fear and to keep resistance away. They 
suffer from the neglect of a government that lacks the capacity 
to provide for their basic needs. They suffer from the resource 
grab that has for hundreds of years, as I mentioned before, 
left them unconscionably in poverty while companies and 
governments, militiamen from their own country, but countries 
from around the world profit from the misery of the people of 
the Congo. Today for the sake of the Congolese people, we are 
here to examine the lessons learned and figure out a way 
forward.
    Lastly, I must add that the American people stand in 
solidarity with the people of the Congo. One of my 
constituents, Reverend Phyllis Zoon of Newark, is a mission 
advocate at the Monmouth Presbytery. She sent me a passionate 
letter on behalf of herself and her parish and the Presbyterian 
Church of the USA, asking me to urge the administration to 
protect the human rights and democracy in the Congo. Ms. Zoon 
expressed concern for the citizens killed at the hands of the 
Congolese forces. Her letter just highlighted that she would 
hope that we would move toward ensuring that the people of the 
Congo are protected, and I would ask that the letter be 
submitted to the record.
    Mr. Marino. Without objection, sir.
    Mr. Payne. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Marino. Thank you, Ranking Member Payne.
    Now I turn to Congressman Turner who has a statement to 
present.
    Mr. Turner. Thank you, Mr. Chairman. I will be very brief. 
I am here to learn. As Congressman Payne so eloquently pointed 
out, the sad history of this nation began with the abrupt 
departure of the Belgians, the most corrupt, brutal, and 
unenlightened colonialists in all of Africa. The legacy, I 
think, was compounded with United States policy in an attempt 
to keep the Congo intact in the early 1960s.
    Despite the religious, tribal, geographic, and other 
elements that may have dictated a different take, and I am not 
sure if that is something that this Government could look at 
once again--is the size and scope of this manageable, and will 
the representative democracy and the rule of law ever really be 
possible with all these distractions? But with that said, I 
yield back.
    Mr. Marino. Thank you, Congressman Turner.
    I now recognize our colleague, Congressman Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and Ranking Member 
Payne for holding this hearing. The long history, both pre- and 
post-independence of violence and exploitation surrounding the 
DRC's vast natural resources has severely impacted the ability 
of this country to realize its enormous potential.
    Eight years following the 2003 peace accords, the DRC 
remains enmeshed in debilitating challenges, from ethnic 
conflict to widespread corruption, extreme poverty, and 
inconceivable human rights abuses.
    Last year, this committee appropriately held a DRC hearing 
on International Women's Day. The ongoing presence of armed 
militias, in the eastern Congo in particular, has continued to 
perpetuate civil strife and a crisis of sexual and gender-based 
violence against women and children, with hundreds of thousands 
of rapes committed.
    As life becomes increasingly uncertain for the Congolese 
people, the U.S. and the international community must do more 
to advance the mediation process, meaningful security sector 
reforms, and improve governance to elevate civil society, and 
to combat the illicit mineral trade that props up militias, 
enables cycles of violence, and deprives the Congolese of 
critical natural resources.
    In closing, I want to thank the panelists for being here 
today and sharing their expertise with this committee. I 
appreciate your time, and I yield back, Mr. Chairman.
    Mr. Marino. Thank you, Congressman.
    I wanted to bring to your attention that Ranking Member 
Payne has brought to my attention that he cannot remember the 
last time that Chairman Smith was not here. I have been 
informed that he has a very serious infection in his leg and 
cannot be with us, and I think I can vouch for all of us saying 
if he could walk here, crawl here, or be drugged here, he would 
be here. So we hope that he gets better very soon.
    I have a little bit of a tradition that, since I have been 
occasionally doing these, is I wait to ask my questions last. 
So I am going to ask the ranking member and former chairman, 
Congressman Payne, my colleague, to start off the questioning 
after we hear your testimony.
    I am going to introduce the witnesses first. Ambassador 
Donald Yamamoto, United States Department of State. Ambassador 
Yamamoto is no stranger to this subcommittee, having testified 
before us last March at a hearing about the DRC, and on two 
other occasions last year. He has served since 2009 as the 
Principal Deputy Assistant Secretary for the Bureau of African 
Affairs in the U.S. Department of State. His prior assignments 
include serving as U.S. Ambassador to Ethiopia from November 
2006 to July 2009 and as Deputy Assistant Secretary of State in 
the Bureau of African Affairs from 2003 to 2006.
    Dr. Daniel Baer, United States Department of State. Dr. 
Baer has served as Deputy Assistant Secretary for the Bureau of 
Democracy, Human Rights, and Labor since November 2009. He has 
served in many different offices in the State Department prior 
to his work in DRL, including the Bureau of East Asian and 
Pacific Affairs, the Bureau of African Affairs, the Office of 
Multilateral and Global Affairs, and the Internet Freedom 
Office. Prior to working for the State Department he taught at 
Georgetown's business school and had a fellowship at Harvard. 
Welcome.
    Dr. Sarah Mendelson, USAID. Dr. Mendelson has served as 
Deputy Assistant Administrator in USAID's Bureau for Democracy, 
Conflict, and Humanitarian Assistance since May 2010. She has 
brought nearly two decades of experience working on issues 
related to human rights and democracy to this position. She was 
the director of the Human Rights and Security Initiative at the 
Center for Strategic International Studies and worked as a 
program officer in Moscow with the National Democratic 
Institute in 1994 and 1995. She has authored numerous peer-
reviewed articles and advised Human Rights Watch and the 
Council on Foreign Relations. Thank you for being here. 
Welcome.
    I see that my good friend and colleague Congresswoman Bass 
is with us. Did you care to make a statement?
    Ms. Bass. No, I will wait for questions.
    Mr. Marino. Thank you. I turn the floor over to Ranking 
Member Payne.
    We will start with the Honorable Yamamoto. Please limit 
your statement to 5 minutes, but your entire written statement 
will be entered into the record.

STATEMENT OF MR. DONALD Y. YAMAMOTO, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Yamamoto. Thank you very much, Mr. Chairman, and 
again it is a great honor to appear before this subcommittee 
with you, Mr. Chairman Marino and, of course, Ranking Member 
Payne and Madam Bass and Turner and Carnahan are here, and our 
prayers are with Congressman Smith.
    Mr. Marino. Thank you.
    Ambassador Yamamoto. I also ask forgiveness that our 
Assistant Secretary, Johnnie Carson, could not be here today.
    The DRC, with its immense mineral and water wealth and 
strategic location, is important to the region, to 
international investors, and countries seeking resources. For 
the United States, the DRC has a special humanitarian 
commitment for this country and for its people. The DRC's 
turbulent history from outside interference to internal 
development challenges have never allowed it to really fully 
live up to its economic promise and the stability that the 
people of the Congo richly deserve.
    The Congo lacks a functioning state authority throughout 
much of the country, lacks the capacity to provide basic 
services such as health care, education, and infrastructure, 
and lacks a fully functioning justice system and bureaucracy. 
The security forces are frequently undisciplined, ill-equipped, 
poorly trained, and irregularly paid.
    It is in this context that the DRC held its second 
democratic election since the end of the Mobutu era, and the 
first election was wholly organized and directed by the 
Congolese--this is really the first election directed by the 
Congolese themselves since independence. Unlike 2006, the 
elections were largely managed by the United Nations and other 
international donors. The USG found the management and 
technical execution of these elections to be seriously flawed, 
lacking transparency, and not on par with the positive gains in 
the democratic process that we have seen in other recent 
elections in the region and elsewhere.
    Secretary of State Clinton noted that, ``We were deeply 
disappointed that the Electoral Commission's provisional 
results were affirmed without a full investigation of alleged 
irregularities, despite opportunities to do so.''
    Mr. Tshisekedi and his supporters went so far as to hold 
their own swearing-in ceremony and to declare themselves the 
rightful winner of this election. Mr. Tshisekedi is virtually 
under--in home-arrest, surrounded by the police.
    We have called on due process and judicial procedures to be 
followed in this case. We also deployed many observers from the 
U.S. mission and from other areas to attend provinces 
throughout the Congo.
    To coordinate our efforts in the DRC on December 9th, 
Secretary Clinton announced the appointment of Ambassador 
Barrie Walkley as our new Special Advisor for the Great Lakes 
and the DRC. We are also concerned about the savage reign of 
terror by the LRA and the illicit trading of the DRC's natural 
resources which denies its people access to its own assets.
    We currently have approximately $11 million in 2010 funds 
specifically aimed at increasing the transparency and 
regulations of the trade in key minerals in eastern DRC. We 
also recently notified Congress of an additional $4.7 million 
in 2011 for Complex Crisis Fund resources that we will apply to 
promoting traceability and monitoring in the regional minerals 
trade.
    The DRC and the United States have a solid and positive 
relationship, and our Governments continue to engage at the 
highest level on a range of issues that are aimed toward 
democracy, a peaceful and stable Congo. Mr. Chairman and the 
honorable members of this subcommittee, I look forward to 
answering your questions today. Thank you.
    Mr. Marino. Thank you, sir.
    [The prepared statement of Mr. Yamamoto follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Marino. Dr. Baer, please.

STATEMENT OF DANIEL B. BAER, PH.D., DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                            OF STATE

    Mr. Baer. Thank you very much, Mr. Chairman, Ranking Member 
Payne, and the other members of the subcommittee. Thank you for 
the opportunity to testify today in light of what Secretary 
Clinton has described as seriously flawed Presidential and 
parliamentary elections held on November 28th. I know the 
committee has demonstrated sustained interest in the DRC, and I 
appreciate that, and I appreciate also your continued focus on 
the human rights climate in the DRC.
    As Ambassador Yamamoto has just outlined, the 
administration is monitoring events closely and shares 
Congress' concerns. We are taking action as events unfold. For 
example, in recent days the Department spokeswoman publicly 
expressed our concern about reports that Radio France 
International had been shut down. We urged relevant Congolese 
authorities to reinstate RFI's frequencies immediately, which 
they did, and we will continue to advocate to all Congolese 
political leaders and their supporters, the need to act 
responsibly and renounce violence.
    I would also like at the outset to reiterate our serious 
concerns about gender-based violence in the DRC, which I know 
has also been an interest of this committee. Every hour of the 
day, dozens of women are raped in the DRC, dozens of women 
every hour. This is why the United States continues to champion 
improved protection of civilians, especially an end to the 
epidemic of rape and gender-based violence. The United States 
has worked successfully to secure new Security Council 
resolutions--sanctions against individuals who lead armed 
groups operating in the DRC or are linked to crimes involving 
sexual- and gender-based violence and illegal child-soldier 
recruiting.
    Additionally, the United States led the adoption of a U.N. 
Security Council resolution that supported, for the first time, 
due diligence guidelines for individuals and companies 
operating in the mineral trade in eastern Congo.
    In general, and in part as a result of the training 
provided by the United States to the Congolese national police, 
the police in the DRC have exercised restraint when dealing 
with demonstrators and protestors. However, in some notable 
instances during the run-up to the elections and in their 
immediate aftermath, the Government of the Democratic Republic 
of the Congo resorted to excessive force to break up protests. 
Citizens were shot and beaten, detained without charge, 
sometimes in the middle of the night, and sometimes 
disappeared.
    The government has also placed restrictions on the freedoms 
of speech, press, and assembly in breach of democratic norms. 
We expect the DRC Government will be tempted to resort to such 
behavior in the future. For this reason, the USG has repeatedly 
and will continue to forcefully make clear that such violations 
of civil and human rights are unacceptable and must cease 
immediately, and that the perpetrators of human rights 
violations must be brought to justice.
    Now, the court system in the DRC is dysfunctional at best, 
and in many parts of the country nonfunctional. The electoral 
law, for example, calls for the establishment of a 
constitutional court, among whose functions would be the review 
of electoral challenges, but to date the new court has not been 
established. The existing court system will be severely 
challenged to judge impartially and credibly the thousands of 
challenges expected to be filed by disappointed parliamentary 
candidates. When provincial elections take place later this 
year, there will be more challenges. This surely will 
exacerbate the already troubling situation. Moreover, the 
Congolese Supreme Court is widely considered to be biased 
toward President Kabila, and its decision validating his 
electoral victory was extensively criticized as premature, 
unfair, and poorly executed.
    The U.S., the international community, foreign governments, 
international organizations, and NGOs have contributed billions 
of dollars and sent thousands of advisers into the DRC over the 
years. To date, unfortunately, the Government of the Democratic 
Republic of the Congo has not shown the same commitment to 
reform, and we need to be clear: Without a strong and sustained 
commitment by the government to democracy and human rights, 
little can be done that will be sustainable.
    We all know that the DRC is one of the least developed 
countries in the world. Even were the government completely 
committed to improving democracy and human rights, its 
abilities are limited, and developing the capacity of the 
Congolese Government, enacting laws, and transferring tools and 
know-how is but a small part of the solution. Helping them 
foster and inculcate a respect for human rights and the rule of 
law, and embedded into institutions as a way of doing things, 
is the central task and the larger part of a sustainable 
solution.
    I have already addressed the issues surrounding the courts. 
In addition, a robust and free media sector must be established 
and allowed to function. A vibrant civil society must be 
supported and recognized as a vital partner in building a 
stronger DRC. Corruption must be tackled so that 
entrepreneurship and economic growth can win the day. Children 
must be educated and all people need to know their rights and 
be given a chance to understand through experience how those 
rights undergird democratic societies.
    All these things are hard, long-term tasks. They all 
require leadership and commitment from the top of the 
government, and none can be accomplished until the government 
is able to provide for the physical security of its people. 
Democracy and human rights are both contributors to and 
dependent on peace and security.
    In conclusion, I want to assure the subcommittee that the 
administration is unwavering in its commitment to move Congo to 
internationally accepted human rights standards and norms. 
Thank you, Mr. Chairman, and members of the subcommittee. I 
welcome your questions.
    [The prepared statement of Mr. Baer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Marino. Dr. Mendelson.

   STATEMENT OF SARAH E. MENDELSON, PH.D., DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Mendelson. Good afternoon, Chairman Marino, Ranking 
Member Payne, members of the subcommittee. Thank you for 
inviting me to speak with you today about the Democratic 
Republic of the Congo. I am pleased to have the opportunity to 
discuss the work of USAID with you, such great supporters of 
Africa, and with my colleagues from the State Department with 
whom we work so closely. For me personally, it is a great 
pleasure to be back testifying before you, and I am very sorry 
Chairman Smith is ill, and our best wishes are with him.
    How each country reconciles, or not, with violent episodes 
from its past is an important driver of political development. 
In the DRC, democratic institutions and processes play a vital 
role through which the country can overcome political 
divisions, reinforced by years of conflict. During the past 
several years some real progress has been made toward 
strengthening democratic institutions and processes in the DRC, 
including adoption of a revised Constitution and successful 
elections in 2006.
    Through our assistance programs, the United States 
Government has sought to help support a stable and democratic 
state, one that is at peace with its neighbors and provides for 
its citizens. We pursue our programs with a particular focus on 
the costs of conflict borne by women and youth.
    As you know, Presidential and legislative elections held in 
the DRC on November 28th were widely anticipated as an 
opportunity for the DRC to move beyond its past and advance 
toward democracy and stability. The Independent National 
Election Commission, the CENI, took primary responsibility for 
managing the elections with some international support. 
Established just 8 months before election day, the CENI was 
able to register 32 million voters. Millions of Congolese 
citizens went to the polls.
    The CENI's accomplishments should not be underappreciated. 
However, the CENI's management of the electoral process was 
generally inadequate. Even allowing for the significant 
logistical challenges inherent to the DRC, nearly every step of 
the electoral process was delayed. International and domestic 
observers, as well as Secretary Clinton, have noted 
considerable flaws throughout the process in the pre-election 
period, on election day, in the tabulation of votes, and in the 
process for electoral dispute resolution. In my written 
testimony I discuss these issues more fully and describe steps 
that could be taken to improve the proficiency, transparency, 
and credibility of future elections in the DRC.
    USAID supported the 2011 election process through direct 
funding for the International Foundation for Electoral Systems 
and the Carter Center to support civic and voter education as 
well as international election observation and capacity-
building of human rights organizations to observe the 
elections. The IFES civic education program reached over 19 
million people, providing citizens accurate information on 
elections and enabling them to effectively participate. The 
Carter Center deployed 10 two-person teams of international 
long-term election observers to all provinces in the months 
preceding the elections and on election day, working closely 
with domestic observers from the Catholic Church, among others. 
These efforts were instrumental in identifying key election-
related irregularities.
    Moving forward, USAID has a range of ongoing programs that 
support citizen involvement in democratic processes and 
facilitate political reforms, including strengthening the rule 
of law institutions, including the constitutional court once it 
is established, civic education activities through robust 
partnerships with a range of civil society organizations across 
the DRC, good governance activities that seek to engage 
productive civic participation and democratic processes, 
including community-based organizations and civil society 
groups, election monitoring and human rights work implemented 
by the Carter Center, which will be essential for assessing any 
human rights violations or conflict during upcoming elections, 
and of course media sector development through Internews 
Network that builds the capacity of Congolese media 
institutions, particularly community radio stations.
    At the same time USAID has been providing assistance to the 
DRC to support the electoral process, we have also undertaken a 
number of activities and actions to mitigate the potential for 
violence, such as establishing early warning mechanisms, 
monitoring incidents of violence, and supporting conflict and 
atrocity prevention activities. Our reconciliation work 
provides opportunities for conflict-affected groups to interact 
and save spaces to address issues of mutual concern, reconcile 
differences, and promote understanding and trust and work on 
common goals.
    USAID is also addressing the causes and consequences of 
human rights abuses that are being fueled by conflict in the 
DRC, including sexual- and gender-based violence and 
trafficking in persons. And attention to these issues is 
essential before the DRC can enter on a path to long-term 
sustainable development.
    The United States and our partners in the international 
community remain dedicated to supporting efforts for stability 
and prosperity in the DRC, although ultimately, of course, 
advancing democracy, human rights, and good governance there 
requires the engagement of the Congolese people and political 
commitment by the Government of the DRC. We are hopeful such a 
path will be taken. The written testimony I submitted to the 
subcommittee expands on the themes I have presented. I welcome 
any questions you have.
    Mr. Marino. Thank you, Dr. Mendelson.
    [The prepared statement of Ms. Mendelson follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Marino. Now I think the timing is right for me to ask 
my colleague and Ranking Member Payne to lead off the 
questioning. Thank you, sir.
    Mr. Payne. Thank you very much. We should have an interlude 
with an instrument. I finally got a chance to ask a question.
    Let me thank all of the witnesses for your testimony, and 
let me ask a question perhaps to all the panelists, and you may 
want to answer it or not, but--and I will probably do that with 
most of the questions unless it gets to specific USAID 
questions, and I will certainly relate it to you.
    In March of last year our subcommittee heard testimony from 
witnesses who warned of the current electoral crisis. As noted 
in today's testimony, these elections were marred by violence, 
reports of fraud, and logistical gaps. Yet, even if the 
electoral irregularities and other flaws had not emerged, 
administering elections of this scale in this country with 
little infrastructure was going to be challenging without these 
other problems.
    As it has been mentioned, more than 31 million registered 
voters, estimated 19,000 candidates for 500 parliamentary 
seats, 11 candidates for Presidency, a country about one-fourth 
the size of the United States. To what extent, if at all, do 
these elections represent a setback for democracy and moving 
forward in the DRC, and do you believe that the problems 
would--would the outcome be the same if these election frauds 
were not committed? In other words, was it enough, in your 
opinions, to change the outcome of the election? We do know, 
and it is clear, that there were many problems. The question 
basically is: Do you believe that the outcome would have been 
different without these problems? Ambassador?
    Ambassador Yamamoto. Thank you, Congressman Payne. From the 
2006 elections where some of us were there as election 
observers and to look at the process, it was almost entirely 
managed and paid for by the international community, and the 
feeling was that for the ownership and for the people of the 
Congo, that they wanted to take ownership of this process. And 
so the next election, this second election, had a much more 
integrated dynamic, that the Congolese would be the authorities 
on this electoral process.
    So is it a setback? It is one step in the process of the 
democratic process in the Congo. It is an issue that the people 
in the Congo wanted, and it is something that we had supported. 
We started the process of supporting this election earlier, 
back in 2008 and 2009, with the IFES and later on with the 
Carter Center. But were there sufficient funds? And of course 
the answer is, there is not always sufficient funding to do 
that, but this was a step that we took.
    The other issue, too, is that if you look at the elections, 
this election compared to the 2006 elections, you didn't have 
the violence that was marred after those elections with the 
problems of militias, by Bemba, Kabila, and other groups. Here, 
the death toll was what was unacceptable, but not the level we 
saw in 2006.
    As far as the results of the election, we were very clear 
from the outset, I think all of us were in the international 
community, that these elections were not transparent, they 
lacked transparency and did not measure up to the democratic 
gains made in other African elections. However, whether these 
irregularities would have been sufficient enough to have 
changed the outcome of those elections is unclear.
    But the issue is that the process has begun and that 
through our commitment after the election by Secretary Clinton 
and the State Department, we are committed to ensuring that the 
electoral process will continue to progress and address the 
needs and build the trust and confidence of the people of the 
Congo.
    Mr. Payne. The electoral body does not--committee does not 
have the national--Congo Independent National Election 
Commission does not have any civil society, I believe, on that 
Commission. And I wonder if you believe that for civil society 
to be a part of that CENI would improve--or CIMCO would 
improve--well, CENI would improve the confidence that the 
people of the Congo would have in that body?
    Ambassador Yamamoto. I will defer to my colleagues, but 
overall the CENI reflects the process established. And, of 
course, how the CENI is established, et cetera, will be for the 
Congolese to determine. But I defer to you.
    Mr. Baer. Obviously the CENI is established under a 
statutory authority, and so the way it is established is part 
of the law. But I think in general our approach has been not 
only in the Congo but elsewhere around the world to encourage 
the participation of civil society and to encourage governments 
to make civil society partners, particularly in electoral 
processes where the credibility of processes can be enhanced to 
the extent that civil society is participating.
    I think that your question speaks to a more general 
challenge that lies ahead in the Congo. And building off your 
last question in terms of whether this was a setback, certainly 
it wasn't a step forward. And in order to move forward, there 
is not only the challenge of improving the execution of 
elections but also mitigating the political tensions that have 
arisen. And one of the ways that the political problems can be 
solved is by making a more inclusive process across the board. 
So engaging with civil society on the part of the CENI would be 
one example of how that might be executed.
    Mr. Payne. Dr. Mendelson, as you know, a team of 
international election experts from the International 
Foundation for Electoral Systems, IFES as we all know it, and 
the National Democratic Institute, the NDI, were in the DRC 
from January the 5th to the 13th assessing the feasibility of 
conducting a review of the results of the November 28th 
legislative elections. Please describe in detail the results of 
IFES and NDI assessment, and how feasible are the proposed 
recommendations that they made?
    Ms. Mendelson. So in Secretary Clinton's statement on 
December 20th, she said, ``We believe a review of the electoral 
process by the Congolese authorities and outside experts may 
shed additional light on the causes of irregularities, identify 
ways to provide more credible results, and offer guidance for 
the ongoing election results for future elections.''
    So we funded a small team from IFES and NDI for a scoping 
mission to ascertain if a more comprehensive assessment was 
feasible. We were very clear that we would not play any role in 
validating or certifying electoral results or processes.
    The Government of the Democratic Republic of the Congo 
allowed the team to meet with a range of stakeholders, and the 
CENI, in particular, allotted significant time to spend with 
this team; but unfortunately the types of activities that the 
GDRC was hoping that the team would undertake were not in line 
with the team's priorities. So by the end of the time in the 
DRC, it was clear that a more comprehensive assessment would 
not be feasible.
    To your specific question, there has not been a detailed 
assessment done, and they have not published specific 
recommendations.
    Mr. Payne. Let me ask this to Assistant Secretary Yamamoto. 
According to the official results, as we know, upheld by the 
Supreme Court on December 16th, Kabila would have gotten 49 
percent of the vote while Tshisekedi received 32 percent. 
Tshisekedi has refused to accept these results and has 
inaugurated himself as President. Tshisekedi has also called 
for the cancellation of all legislative results, and the 
opposition is reportedly organizing mass protests for February 
the 16th.
    In your opinion, what can we do to ensure that Congo does 
not descend into further conflict and instability as a result 
of the flawed elections? How likely is it that a standoff 
between President Kabila and opposition leader Tshisekedi will 
escalate into mass violence in the coming weeks or months? What 
is the current status of the mediation efforts between the 
government and opposition, and what impact, if any, has this 
electoral dispute had on regional stability? As we know, the 
Great Lakes region is very fragile.
    Ambassador Yamamoto. Thank you, Congressman. The issue for 
us is that we have been in close discussions, private 
discussions with Assistant Secretary Johnnie Carson, our 
Ambassador James Entwistle, and his deputy Sam Laeuchli out in 
Kinshasa with every part of the opposition, particularly 
Tshisekedi as well as President Kabila and Mulunda from the 
CENI.
    In respect to your question, the issue is that on the short 
term to avoid problems from escalating beyond where they are 
now is that there has to be open political dialogue first and 
also communication to ensure that there is transparency not 
only in the process but also in the discussions. We also have 
called and move forward in discussions privately on opening 
more political space, ensuring that the opposition and all 
people have the right to express their will but also 
responsibly express those wills without violence, and also to 
have a commitment from all parties that they will not commit 
themselves or that they would avoid violence, et cetera. And so 
in the short term is dialogue, communications, open political 
space, and over the long term is much more technical assistance 
and commitment to capacity building.
    What does this portend for the regional stability in the 
area--to your last question--is that all the countries are 
clearly focused on what happens in the Congo but also what is 
happening in neighboring countries, from Burundi to Congo, 
Brazzaville, et cetera. Our special adviser, Barrie Walkley, is 
currently in discussions with the regional leaders. And that is 
important to work with our Ambassadors, to get their views, and 
also to bring better communications and dialogue so that it 
doesn't spiral out, and that there is a confidence building 
among the participants of this region. Thank you.
    Mr. Marino. Thank you, Ranking Member Payne. My good 
friend, colleague, and neighbor, Representative Karen Bass.
    Ms. Bass. Thank you, Mr. Chair, and also thanks to the 
ranking member, but I appreciate the chair for moving forward 
and holding this hearing, and I definitely want to express my 
best wishes for Chairman Smith, that he gets better.
    I wanted to ask a few questions, kind of following up on 
what you were saying, Mr. Yamamoto. You described what is 
needed, you know, in the future dialogue, communication, 
political space, technical assistance, and capacity building. 
And I have not had the opportunity to travel to the DRC, but 
everything that, you know, I have read and in the hearings, it 
sounds as though a situation of chaos is there. So how do you 
have dialogue, communication, political space, TA, and capacity 
building in the midst of chaos is one question.
    And then I want to switch reels in a minute and talk about 
the minerals, but I just want to understand what is the impact 
or what has been the impact of our statements as the United 
States regarding the elections and the situation in the DRC?
    Ambassador Yamamoto. Let's go to the last part first. I 
think the statements have been very important because it 
underscores, I think, our position, and also the credibility of 
what we have observed in the elections, electoral process. It 
also calls to all the parties, not only the government but also 
the opposition, that this is what we have seen, these are the 
problems, these are the issues that we need to resolve, and 
this is the way forward.
    The other issue, too, is to work with the neighboring 
states on what is happening in the Congo precisely so that no 
one misinterprets or misunderstands what is happening or that 
the commitment from the international community and the United 
States still remains very important to that region and also to 
the neighboring states.
    But more important is the private dialogues that we have 
made with Mr. Tshisekedi and Mr. Mulunda and, of course, the 
President himself, on what we see and what we can do together 
to ensure that this does not spiral out of control, and what 
steps are necessary to restore confidence and trust in the 
people in the Congo in the electoral process. And it is going 
to take time.
    As to your first question, how do you bring chaos--or how 
do you bring order to what seemingly looks like chaos? It is 
going to take time, it is going to be difficult, it is going to 
be challenging, but I think the areas that we are focusing on 
are the right areas that we need to focus on. It is going to be 
in the short term is to build that confidence, to build the 
communication, to build transparency; and over the long term, 
to dedicate and commit toward capacity building, judicial 
reforms, and political reforms. And I would like to defer also 
to my colleagues who are really at the forefront of some of 
these programs.
    Ms. Bass. But, I mean we started off this hearing talking 
about in the hour that we have this hearing, how many women are 
going to be raped?
    Ambassador Yamamoto. Yes.
    Ms. Bass. I am having difficulty understanding the 
difference that we make. Do we consider the Kabila government, 
do we consider it legitimate? I mean, what leverage do we have?
    Ambassador Yamamoto. The leverage is not just with the 
President, with President Kabila and his government. The 
leverage is with all the parties together.
    Let me just give you an example. Between 2003 and 2006, you 
know, with our tripartite group we made about 26 visits to the 
region to understand better what we need to do, what the 
problems were. But more important is by our mere presence in 
these remote areas is to underscore that we are committed to 
finding a solution. I think the groups that we deployed not 
only from the Embassy but also from the Department of State, 
also the support for the other organizations underscored that 
we remain committed toward finding solutions and toward working 
with the people of the Congo. Yes, it is going to be hard, as 
you say. The problems are enormous, but we need to tackle them 
one step at a time, issue by issue, and I think over the long 
term there will be a tremendous amount of progress.
    Ms. Bass. Secretary Baer? Mendelson?
    Mr. Baer. Thank you, I agree with Ambassador Yamamoto. I 
would just say that when we looked back 10 years ago, there 
were thousands of people dying every day, and one of the 
things, unfortunately, we have been working on is preserving 
enough stability to make the incremental progress that he 
described. And, unfortunately, when you have a territory as 
large as the Congo is, with as little development as the Congo 
has, and as poor of a justice sector and as poorly controlled 
of a military, the challenges can seem insurmountable.
    I think that Secretary Clinton's visit to Goma 2 years ago 
underscored her personal commitment, particularly on the fight 
against sexual- and gender-based violence. Under Secretary 
Otero went last October. Assistant Secretary Carson has on 
numerous times engaged with the government on this. So I think 
our engagement is important. I think one of the things that are 
important----
    Ms. Bass. Is the communication such that like the 
majority--I don't want to say ``majority,'' but who knows that 
we go?
    Mr. Baer. Oh, I was going to say one of the most important 
effects of our engagement is that it gives credibility to the 
people on the ground who are engaging. If you look at the 
election context, one of the most loud voices in the domestic 
context has been the Catholic Church. And to the extent that 
the international community is calling out concerns and flaws, 
it gives credibility to those domestic voices who are also 
calling out their concerns.
    And we all recognize that in order to solve the governance 
challenges from which the violence flows, that there is going 
to have to be a political solution at the domestic level. It 
will be with our support, but it is not going to be of our 
doing. It is going to be of the doing of the Congolese people. 
And to the extent that we can give credibility to those voices 
that will be part of that political solution, our voices add 
value to theirs.
    Ms. Mendelson. I have been working on a biography, 
Suggested Political Transition, for over 20 years. And it is a 
non-linear path. And I think that again when you look at this 
election versus 2006, what is really striking about it is that 
the international community did not shepherd it, it was 
Congolese. And there are going to be setbacks and certain parts 
that did go well. Election day itself was much more peaceful, 
very large turnout.
    The idea that there is tremendous chaos and that we can't 
do any kind of assistance in that or development work in that 
environment isn't borne out by the actual impact that some of 
our investments have. I share your concern both in terms of the 
gender-based violence and the human trafficking costs. I think 
that the administration is very devoted both to the National 
Action Plan where we are really focused in on postconflict and 
conflict regions, and trying to come up with measurable 
interventions that we can be held accountable for.
    We are about to launch a new counter-trafficking policy at 
USAID in the next couple of weeks. We are going to increase 
modestly our investments income, adding trafficking in the DRC. 
So we understand this is a larger piece than we alone can do, 
but we are very focused on trying to find evidence-based 
programming interventions that we know are going to work.
    Ms. Bass. If you don't mind, Mr. Chair, may I ask a few 
more questions?
    Mr. Marino. Congresswoman, you can have all the time you 
need.
    Ms. Bass. Thank you. I wanted to switch reels for a minute, 
and I believe that Dr. Baer had mentioned earlier about U.S.-
issued guidelines regarding the mineral trade, and I wanted to 
know if you could talk a little bit about that. I am 
specifically interested in who is involved in the mineral 
trade. Are there a lot of U.S. companies involved or are they 
European companies? Who is engaging in the mineral trade?
    Mr. Baer. Historically, the mineral trade has included 
every range of actors that you describe, from the small shop or 
the one-person show that sells to a middle man that sells to a 
middle man that sells to a middle man, to large multinationals. 
I don't know which U.S. firms are operating there now, if any. 
I know that many firms have, because of the violence, even made 
initial planning missions, but have not chosen to develop 
mining operations, et cetera, or have paused or withdrawn.
    I believe Rio Tinto is still operating, but I believe 
Freeport-McMoRan has ceased recently. I may be getting them 
inverted. So there are a range of firms operating.
    Ms. Bass. Are those firms here? I am not familiar with 
those names.
    Mr. Baer. Rio Tinto is Australian and Freeport-McMoRan may 
be a U.S. firm, I am not sure. In any case, they operate with 
Congolese partners in most cases as a joint venture.
    The challenge for whoever the operator is, whether it is a 
domestic Congolese operator or an international firm, the 
challenge is making sure that the supply chains are secure, 
being able to know the provenance of the minerals, because what 
happens is the revenues get siphoned off at various side points 
or get smuggled in--the minerals get smuggled into a clean 
supply chain, allowing rebel groups to fund their activities. 
And so the reason why the international community is focused on 
that is to try to starve the rebel groups of this source of 
funding. And, of course, the rebel groups have been the primary 
perpetrators of the sexual- and gender-based violence.
    I think it is a good thing that the OECD has developed 
guidelines on due diligence for supply chains. And we expect 
that as companies learn to better implement those guidelines 
that that will help solve parts of the problem. But to be 
completely straight with you, it is a monumental practical 
challenge, given all of the challenges that we have already 
described, the vast distance, the lack of police, et cetera. It 
is a huge challenge and will be one going forward, but it is 
one that responsible companies are going to figure out a way to 
solve. They figure out a way to solve problems with supply 
chains of all sorts all over the world, and they will figure 
out how to solve it and we continue to look to them to make 
progress on that.
    Ambassador Yamamoto. And just to add to Dan's comments, we 
still await the Securities and Exchange Commission issuance of 
the new regulations under section 1502, because this will 
increase the confidence of U.S. firms of what the regulations 
and guidelines are in operating in the Congo so that they can 
make the adjustments. Right now, not knowing what the 
regulations are, it creates a lot of insecurity and questions 
about how they can manage the conflict minerals. And also it 
has repercussions on the people of the Congo in that area as 
far as unemployment and other issues. But I think after the 
regulations are issued that will help.
    In the meantime, the ICGLO, which are the regional groups, 
are making plans, are moving forward. We continue to talk to 
American businesses about trade in the Congo because we need to 
be there.
    Ms. Bass. And can I get that information somewhere, like 
who is involved? Because I am just wondering when we are 
talking about civil society and all that, I am just wondering 
if there is a way that they can be engaged. Some of the major 
companies, whether U.S. or otherwise.
    Ambassador Yamamoto. Sure. We can provide you that 
information and we will come and brief you privately.
    Ms. Bass. I would appreciate that.
    Mr. Baer. One of the initiatives that we have engaged with 
U.S. firms on, as well as other multinational firms, is called 
the Voluntary Principles on Security and Human Rights, which 
has to do specifically with the private security contractors 
and public security forces that multinational firms use to 
protect their assets, and making sure that they are trained and 
ensuring their respect for human rights. And so that is 
something we have discussed both with the Congolese Government 
and with multinational firms.
    When I was in Kinshasa last June I had a small meeting with 
a number of firms that are represented there. So we are working 
with firms on that. And to your question about civil society, 
there is a very against-all-odds and extremely vibrant civil 
society in eastern Congo that works on issues like this every 
day. And many of the firms that are operating there are in 
contact with them, and that partnership will certainly be part 
of the long-term solution.
    Ms. Bass. Okay, great. I love those firms, too, the 
security firms.
    Ms. Mendelson. May I add that USAID has a very interesting 
responsible minerals trade program that began in Fiscal Year 
2010. It has three basic components. It is about infrastructure 
and regulatory reform, the protection of communities and child-
free certification, and technical assistance to develop a pilot 
program for this conflict-free mineral supply chain to get 
sector users involved.
    And we have an extracted industry advisor currently out in 
the East with a group of users to explore how to work together. 
We can get you additional details if you want.
    Ms. Bass. Okay. Thank you very much, Mr. Chair.
    Mr. Marino. Thank you, Congresswoman Bass. I now turn to my 
colleague, Congressman Turner.
    Mr. Turner. Thank you, Mr. Chairman. A question for you, 
Mr. Ambassador. We have recently deployed about 100 military 
advisors that could cross between Uganda, Rwanda, and the Congo 
to advise--maybe they could get involved in other things as 
well. But can you tell us about the progress, how we measured 
the progress, is there a timetable on this, will it expand? 
    Ambassador Yamamoto. Thank you very much, Congressman, for 
your question. In our last testimony of course we had with 
Assistant Secretary Vershbow, Department of Defense, explained 
the process of assigning up to 100 Special Forces members in 
the role of training, not so much in a combat role, but in 
training and support for the troops of the CAR and Uganda and 
Congo in order to help them have the capacity and capability to 
go after Joseph Kony, Odhiambo, and the others in the LRA 
process.
    We are approaching, as you know, the 150-day mark for a 
review of the process, and at that time I think we will have 
more information for you. As far as training, I think the 
training process is going through extremely well. But the 
question comes in: When are they going to get Kony? When is 
this going to come to an end? I think we have to look at it as 
a very long-term process, but that our role in this is really a 
very small part in the sense that it is training; because 
ultimately it is going to be the Congolese, the Ugandans and 
the CAR themselves who are going to bring this to a conclusion. 
Our role is to support.
    We did file a War Powers Act request, and we thank you very 
much for your support on this process.
    Mr. Turner. The mission is defined more than simply taking 
out Mr. Kony; is that true?
    Ambassador Yamamoto. That is correct. The main function is 
to build a capacity, the training and the support to give them 
the capabilities, and it has capabilities to carry this out. 
But again it is a comprehensive approach. Not only is it 
militarily, but also it is to bring in other programs such as 
USAID has a cell phone program which provides cell phones and 
communications to local communities which, through the cell 
towers constructed by USAID communities, can communicate with 
each other to say where potential attacks are taking place by 
the LRA. As you know it is very, very difficult to go after the 
LRA. You are talking 150 to 200 troops operating in a size less 
than the size of Colorado. It is a very huge, immense area.
    Mr. Turner. I yield back, thank you.
    Mr. Marino. Thank you, Congressman Turner. I believe that 
Ranking Member Payne had some follow-up questions.
    Mr. Payne. Thank you very much. I was in eastern Congo this 
past summer of 2011 and we visited an IDP camp in Goma where 
the IDPs were from villages that were attacked by Joseph Kony. 
At the present time--let me just make it very clear that I 
support the U.S. effort of sending U.S. troops to train the 
Ugandans and the Congolese. I think Kony has been around for 20 
years. It is a disgrace, the terror that he has inflicted on 
people. He should have been taken out 20 years ago. It is 20 
years too late. But I hope that we will be able to train the 
troops so that we can finally eliminate this scourge that has 
been around.
    Do we have any assessment of where he is now? He was in the 
Congo at that time? Maybe, Ambassador, do you know if he is in 
the CAR or is out of Uganda?
    Ambassador Yamamoto. I think, Congressman, there is 
obviously information and et cetera that we work with. I think 
we probably should give you a separate briefing on some of the 
details, but suffice it to say that the commitment and the 
enhancement that our troops are able to bring to bear in this 
endeavor has been extremely positive, but also it has to be in 
the context of a very comprehensive approach. And one of the 
positive results we are seeing is the number of people who are 
leaving the LRA. You are talking core fighters, along with some 
of the 800 or so people accompanying the LRA groups, so that is 
a very positive sign.
    And then the continuation of reconciliation and 
reintegration, not only of Uganda, of the Acholi community, but 
also in other areas, has been very positive and is helping to 
bring these people out.
    Mr. Payne. Let me ask you, how are the current relations 
between DRC and Rwanda and are they still having joint 
exercises together on the eastern border?
    Ambassador Yamamoto. They did have a joint operation. Right 
now we continue to promote open dialogue between the two 
governments and that is one of the main roads that Ambassador 
Barrie Walkley is going to do in his discussion. As you know, 
he went to the ICGLR meeting in Uganda in December and will 
continue that process and bring all the parties together in an 
open dialogue. And so it continues as positive and it continues 
to progress.
    Mr. Payne. In regards to MONUSCO, they have a different 
mandate now. It is supposedly more robust. And secondly, I 
understand that there is a need in their operation for attack 
helicopters. Do you know where that stands and whether that can 
be provided to the U.N.?
    Ambassador Yamamoto. I know for the United Nations--we are 
talking about MONUSCO now. The core mandate for MONUSCO is 
stabilization which is opposite of MONUC which is much more 
peacekeeping. But from MONUSCO one of the main challenges has 
been air assets. We have spoken of this in great detail with 
the head of MONUSCO, Roger Meece. And you are absolutely 
correct; this is an issue that we continue to grapple with. We 
have gone to other countries to help support, and this 
continues to be a challenge.
    Mr. Payne. I know in the previous election, all six 
elections, the South African armed forces assisted in the 
delivery of ballots and so forth. Were they involved in this 
election also?
    Ambassador Yamamoto. Yes. And also the Angolans as well.
    Mr. Payne. Very good. Just a final question. Could you tell 
me in your opinion the difference between a special adviser 
that has been appointed by the President rather than the 
special envoy that has served previously and that we asked to 
be reappointed?
    Ambassador Yamamoto. I think a lot of the differences are 
probably more nuances. But as far as the Special Advisor is 
concerned, Ambassador Barrie Walkley was--as any envoy or 
advisor--was selected among a group of candidates, and he 
proved to be the best, given his linguistic abilities, also his 
ties to the region not only with the DRC but in other areas. 
And more important is because he has the trust and confidence 
not only of the Secretary of State, Secretary Clinton, but also 
of the Assistant Secretary, Johnnie Carson, and also of the 
Ambassadors in the region, who Ambassador Barrie Walkley knows 
personally and worked together with, as well as Roger Meese, 
the head of MONUSCO. So it has been a very productive and 
cooperative relationship.
    Mr. Payne. So there is no difference in the titles?
    Ambassador Yamamoto. There are nuances.
    Mr. Payne. I beg your pardon?
    Ambassador Yamamoto. There are nuances.
    Mr. Payne. Seems like that is a sensitive question around 
the Department of State. No one wants to speak out on it. 
    Ambassador Yamamoto. But I don't think you will see any 
less commitment or any less dedication to this endeavor.
    Mr. Payne. Thank you. Thank you, Mr. Chairman.
    Mr. Marino. Thank you, Congressman Payne.
    I have a couple of questions based on my colleagues' 
questions and I am just going to get right to the point here. I 
was a prosecutor for 18 years, so that is how I get right to 
the point.
    First of all, I was just in Africa 2 weeks ago, on the 
continent. I was in Ghana and Liberia. It was an extraordinary, 
eye-opening, heart-wrenching experience, particularly in 
Liberia. After 13 years or 14 years of war--civil war, albeit--
the first female President, Ellen Johnson Sirleaf, has taken 
control of the situation and seems to be doing an excellent 
job, for which she has her work cut out for her, particularly 
the abuse of women and children. This seems to be a thread 
running through the entire--at least from my experience, the 
southern part of the Continent of Africa. But be that as it 
may, I get the impression that the administration is accepting 
the status quo, almost a hands-off approach.
    And please correct me if I am wrong, but if I am wrong, 
please give me, Ambassador Yamamoto, and anyone else who wants 
to chime in on this, please give me specific examples of this 
not happening.
    Ambassador Yamamoto. Congressman, you raise a very 
fundamental issue in the role of development. I defer to Sarah 
as well. But as Ambassador in both Ethiopia and Djibouti--and 
of course I served as Charge in Guinea-Conakry--one of the 
issues that we are committed to, and Secretary Clinton really 
raised this during her trips to Africa, and that is the status 
of women. By raising the status of women and fighting the 
issues of sexually-based violence, we can not only enhance the 
integrity, the honor, and the status of women, but also 
development, and also create stability in those communities. 
And that is something fundamental right now that has really 
changed dramatically. Certainly in this administration, it has 
come out very prominently.
    All the programs that we are doing throughout the 
continent--and I think that Secretary Clinton received a call 
from Ellen Johnson Sirleaf, and I think immediately she went 
off for the inauguration to lend support to the efforts and the 
issues that she takes very personal and she supports very 
strongly. That is something that our Secretary has done as well 
throughout her trips, and she will be making another trip to 
Africa.
    The program, I will give you one example. What we did in 
East Africa right now through USAID and the programs is, we 
have these community-based development projects where we do 
community schools. And for the moms we do micro-enterprise 
loans. For the dads we are doing agricultural progress, because 
80 percent are agricultural based. We are doing land 
certification programs and other issues. But what we are 
finding out is that for daughters, their moms are their heroes. 
This is an issue that we are expanding, and a project and 
program that USAID and the State Department and our Embassies 
are really taking a hands-on approach and supporting. And as we 
talk to our Ambassadors, this is one of the things we are 
looking at and hearing stories throughout the Continent.
    Sarah, do you want to----
    Mr. Marino. I will get back to you in just one moment. But, 
please, Dr. Mendelson.
    Ms. Mendelson. I had the pleasure over the last several 
months working very closely on the National Action Plan with my 
colleagues from USAID and State and the White House. And really 
under the leadership at USAID of Administrator Shah and Deputy 
Administrator Steinberg who has decades of commitment to the 
issue of women, war, and peace. We are really trying to advance 
a paradigm shift where issues of the safety and security of 
women and children are woven through our entire understanding 
of what stability and development is.
    If the National Action Plan is actually fully implemented 
we would have, through the Department of Defense, Department of 
State, and USAID, a very different conception of how we engage 
in stability. It would be both stand-alone programs but really 
fully woven through every health, education, fully integrated. 
And I think as somebody who is a private citizen, worked on 
this for a long time, it is potentially extremely exciting. And 
of course the President of Liberia herself was one of the 
authors of U.N. Resolution 1325, very involved in the whole 
concept of women, war, and peace. So it has taken 10 years. We 
have come late to the game in many ways, but we are fully 
committed to implementing this over the next many months.
    Mr. Marino. Dr. Baer, you had a comment?
    Mr. Baer. Sure. First of all, thank you for the question. 
You are doing a good job of channeling the chairman because it 
is the kind of question I have grown used to getting from him, 
and of course I share others.
    Mr. Marino. There will be more following.
    Mr. Baer. No person of good conscience could possibly look 
at the Continent of Africa and accept the status quo. And 
nobody that I work with in the administration does. And so 
first of all, let me say that I think there are a range of ways 
that we are engaging, and oftentimes the most important ones 
are in small ways. One of things, for example, that we are 
doing is working on helping train women journalists, because 
one of things we found is in order to get the problems of women 
and children solved, you have to get the stories of women and 
children out. And so training women journalists across Africa 
is one of the things we are focusing on.
    More specifically, we have taken concrete action in the 
multilateral sphere to focus attention on crises in Africa that 
have a particular impact on women and children, like the 
conflict in Cote d'Ivoire last year which we raised with the 
Human Rights Council and have supported follow-up action since. 
I was out in western Cote d'Ivoire in October, that continues 
to be an issue of concern.
    There are ways that we Ambassadors across the continent 
under Secretary Clinton's direction and under the support of 
Ambassador Verveer, are focusing their attention on women 
community leaders, particularly because, as Sarah says, we 
learned the lesson over the last 20 years that peace and 
security arrangements that don't include women and women's 
views do not work. And so it is absolutely the case that this 
administration is focused on improving not only the condition 
of women but also their participation in solving the problems 
that face the continent.
    Mr. Marino. I completely understand your compassion and 
position in this; believe me, I do. And Ambassador Yamamoto, I 
equate it to, as you come in here, you are walking on a 
tightrope with one end in our hand and we are not quite sure 
where the other end is connected. So you have a fine line to 
walk.
    But let me pose this scenario, and I credit Secretary 
Clinton for being there for the inauguration of the President. 
I missed it by a couple days. I wish we could have been there, 
we weren't able to, but we did meet with her and have a lengthy 
conversation.
    But all the programs that you have implemented and you hope 
to implement concerning raising the level of the female, to 
women's proper role, I mean let's face it, it always seems no 
matter where in the world that the wives, the mothers, the 
grandmothers are keeping the rest of us focused and narrow. I 
know that is the way in my home. That is just the way it is. 
When I was raised, my grandmother and my mother, and now my 
wife, just took over. And instead of having two kids, she calls 
me the third kid.
    Be that as it may, as devoted as our intentions are, what 
do we do with Kabila who just says, I am not going to 
cooperate, and still has the control that he exercises? What do 
we do about an individual like that, regardless of the programs 
that are implemented? And, Ambassador, please, would you please 
start off?
    Ambassador Yamamoto. As you know, we provide about $7 
billion in assistance programs, most of it is earmarked, but 
the issues that we distribute and implement, most of them, over 
80 percent, are through NGO groups, with the social civil 
societies and communities in the communities locally, not 
through the government. And that is how we get through and 
around leaders or people opposed to it.
    Mr. Marino. How do you get Tshisekedi's attention, 
seriously get the attention?
    Ambassador Yamamoto. Tshisekedi, that is a very--it is 
difficult. Speaking with him, he has a very strong-minded mind, 
but the question comes in talking to not only him but also to 
his people. And that goes back to I think the DRC on the type 
of government that is going to be formed after his election. 
And we called for an inclusive government. That means inclusion 
of all parties and all groups, including Tshisekedi's people, 
not himself, but--so that helps to influence that wing of the 
opposition party.
    Mr. Marino. I understand your diplomatic responsibility and 
approach, believe me, and I would not trade positions with you 
for all the money in the world. But I seem to--it just--it is 
just not connecting.
    Ambassador Yamamoto. One thing is that--I am getting more 
notes here.
    Mr. Marino. Sorry. Please take your time, and I understand.
    Ambassador Yamamoto. I think it is very telling that Mr. 
Tshisekedi called for a general strike and very few people came 
to the party to participate. But more important is, going back 
to the heart of your question, is how do we really bring a 
societal change? How do we bring fundamental changes? And at 
every level we have thought, with USAID, with our colleagues, 
and I will give you some examples. Some things that we have 
done over the last decade, we have trained 140,000 peacekeeping 
troops throughout Africa. AFRICOM has helped in training the 
391 battalion in the DRC. It is part of that process not only 
for peacekeeping but also for civilian control.
    The other issue is security sector reform, which is a 
fundamental basic, through all the countries and all the 
development, because SSR is really critical if you want to see 
rapid development.
    The other issue, too, I will give you an example, is the 
formation of the Africans themselves forming groups like the 
AMISOM in Somalia. They are doing it themselves because that is 
an integral threat to them. And so our job is to help support 
those efforts. And I think by giving the societal changes and 
dramatic changes at the basic or life thing, that is going to 
speak volumes and help over the long term.
    Mr. Marino. I think we need to bring more attention on an 
international basis, significant attention, and expose what is 
taking place there for what it is worth or not worth.
    Let me pose this, if you don't mind. I see the women in 
Liberia, and certainly in Ghana, taking a very aggressive and 
important role. But are we setting up perhaps an environment 
for the equation of an Arab Spring?
    Mr. Baer. In Liberia and Ghana?
    Mr. Marino. Yes. No, excuse me, no. What we are talking 
about right here in the DRC, when you say you are implementing 
these programs. I am sorry for not being clear on that.
    Mr. Baer. Obviously, Ghana remains a bright spot in the 
continent. And actually speaking to your comments earlier, I 
lived in Ghana for a time, and one of my favorite sayings there 
was when an old woman dies, it is like a library has burned. 
And certainly the appreciation of women's leadership is 
something we hope to see elsewhere.
    I don't think we predict--obviously there are conditions 
unique to every context, including in the Middle East where we 
have seen political transitions this year. And while there are 
some similarities, there have have been different causes and 
events that have led to them. I don't think we predict any 
kind--that type of political transition in the near term in the 
DRC.
    I think what we do predict is that the tensions that are 
there now, the political tensions between Kabila and the 
opposition, are tensions that need to be dealt with and they 
need to be dealt with in a meaningful way in order for people 
to be satisfied. And the good news is there are a range of 
things that the President can do and that others in the 
government can do to bring civil society in, to bring the 
opposition into conversation and dialogue, and to move the 
country forward. One of the things that they can do is commit 
to better election processes going forward, and that is 
something that they will have the support of the international 
community to do.
    Mr. Marino. Okay. Dr. Mendelson.
    Ms. Mendelson. Our programs did not cause the Arab Spring, 
for better or worse.
    Mr. Marino. If that is what you think I inferred, I did 
not. 
    Ms. Mendelson. The dignity and respect agenda that we saw 
on display in both Tunisia and Egypt are obviously very 
powerful for people around the world, but they are 
fundamentally the responsibility and revolution of Tunisians 
and Egyptians. And I think a lot of us are very humbled in 
watching them.
    But the programs that we conduct and the support we gave to 
Congolese civil society and the population are just as Dan 
said. I think that the ability to have independent critical 
media, better election architecture, civil society 
organizations that are robust and listening and responding to 
the needs of the population, are important. They are a part of 
our values, and they are in response to demand on the ground.
    Mr. Marino. And we have to also be addressing issues, 
keeping our eye on a month, 6 months, a year down the road; 
because we don't want to be caught in a position where we are 
caught off guard again, and the disasters that could happen 
because we are looking at this particular moment in time 
instead of trying to calculate and predict what the future may 
bring. You agree with me there.
    Ms. Mendelson. Totally agree. We are not--at least we at 
USAID aren't particularly good at predicting the future. Maybe 
our colleagues at the State Department are better at it. But I 
will say that we as an administration have been very focused on 
what is called the Presidential Study Directive 10. In August 
the President launched a process where we are looking at 
atrocity prevention. We are trying to figure out what tools we 
can bring to bear, where the gaps are, early warning systems, 
response. Obviously this is about political leadership.
    In the context like the DRC, we are really actively working 
to try and figure out what are--are there technological fixes; 
should we be using certain kinds of--we mentioned the cell 
phones and cell towers. Are there ways in which we can better 
organize ourselves to be responsive? Do we see patterns of 
violence?
    Mr. Marino. None of us will be able to predict the future 
with accuracy, but my position has always been before we make a 
radical change into something, we have to sit down and 
seriously--you folks have to sit down and seriously ask 
yourselves and consult with us, if you want our input or any 
assistance, what happens if?
    Ms. Mendelson. We are also actually in the process of a 5-
year strategic planning process. We see this as an enormous 
opportunity to put everything on the table and say how do we 
get to where we want to be? Should we be doing more investments 
in the democracy sector? Should we be doing less in others? 
What does the recent past tell us about what we should be doing 
differently?
    Mr. Marino. Chairman Payne.
    Mr. Payne. Just on the question of Etienne Tshisekedi. You 
know, I see a number of Congolese here, so there could be some 
Tshisekedi supporters and Kabila supporters, whatever. However, 
the future of the Congo is going to be with new, young, 
emerging leadership. I met with Tshisekedi back in the nineties 
when he was complaining about Mobutu, halfway with him, 
sometimes not with him. He had a parade back in, I don't know, 
1991 or 1992 that he was going to be President. I think that he 
had a lot of ability and talent, but his time unfortunately was 
when Mobutu had control over the country and would not allow 
free and fair elections. Of course U.S policy supporting 
Mobutu, which was wrong, but it was a Cold War policy. And so 
whether the election, as we know was flawed, the future of the 
Congo is not with Tshisekedi. Like I said, his time has come 
and passed.
    [Disturbance in the hearing room.]
    Mr. Payne. It must be Tshisekedi's brother or something.
    The question is there needs to be a development of new 
leadership. There are many Congolese in the United States who 
are young, they want to go back, they have talent, they know 
the resources of the country, they know that it is probably the 
wealthiest country in the world, but the people suffer from 
poverty. And so I think we can spend a lot of time on whether 
it was fair or free.
    I think what we need to do is to try to move forward, try 
to have democratic institutions strengthen so that we can then 
move forward. I am not pro-Tshisekedi or pro-Kabila, I am 
simply pro-Congo. And the future is not back in the nineties, 
but it is going to be in the future.
    And so I just want to say that we can--still does not 
change the fact that the elections were flawed and they--I do 
have to commend the Congolese Government for trying to pull it 
off by itself which, without much resource, I believe the 
United States put about in the 2006 elections. Ambassador, do 
you think it was $80 million or $90 million?
    This time we gave them $12 million, but the country pulled 
off the elections with that. That shows a growth, at least in 
the fact that they are moving forward to some degree. So I just 
thought I would say that. I knew I would get someone upset, but 
I think the future is in the hands of the new, younger 
visionary Congolese that want to see the country grow with its 
resources, rather than a few people who still want to keep the 
old system going.
    Mr. Marino. Congresswoman Bass has another question, 
please.
    Ms. Bass. Yes, I wanted to follow up, Ambassador, with 
something you were telling me before about the relationship 
that we have with some of the neighboring countries. And I 
wanted to know if you could be a little more specific which 
countries; what is the relationship; how is it helpful?
    Ambassador Yamamoto. I think the relationship between the 
Congo and the neighboring countries is such that we want to 
avoid the problems we had in the past. We had countries going 
into the Congo to exploit the wealth, and so what we are trying 
to do is have a protection and respect for the sovereignty of 
states. That is number 1.
    Number 2 is to improve the relationships between these 
countries. One of the processes or fundamental objections we 
participated in the tripartite long ago, but continues today 
is, how do you open and maintain a dialogue between all these 
countries with each other? Obviously, they all have their own 
respect of strategic interests, but how do you support and 
coordinate, for instance, Rwanda, on the concerns of the FDLR, 
or Uganda with the problems with the LRA and other issues, with 
the CAR, and the Congo, Burundi?
    Ms. Bass. Maybe I misunderstood you earlier. I thought you 
were referring to the U.S. relationships with some of the other 
African countries in trying to help with the situation.
    Ambassador Yamamoto. I think, well, in that context, the 
United States plays a role, because we are kind of like the 
neutral observer, the neutral arbiter. And we have been able to 
give information, bring parties together, but, more important, 
to be a neutral person, to hear the issues on all sides. I 
think that is a very critical and important role that we play.
    Ms. Bass. Okay.
    Mr. Marino. I do have a specific question that Chairman 
Smith would have asked had he been here, and I am going read 
it.
    There has been discussion in the DRC of the formation of a 
government of national unity as the best remaining means of 
resolving what has become a post-election crisis. Similar 
responses to flawed elections in Zimbabwe and Kenya have not 
been successful. You have stated that the administration is not 
promoting a coalition government. What then would be your 
response to efforts to form a government of national unity in 
the DRC?
    Ambassador?
    Ambassador Yamamoto. I alluded to it a little bit earlier, 
but it is not so much the coalition, it is an inclusive 
government. I think that will help support the aspirations of 
the people of the Congo and make--really what I think you, 
Congressman, have raised with the idea of the Arab Spring, is 
what President Obama said in Ghana 3 years ago, and the 
fundamental pillar of our relationship is to ensure that there 
are democratic values; in other words, governments that are 
accountable to the people. And through an inclusive government, 
to have the Congolese Government accountable to all factions, 
whether they are supporters of Tshisekedi, supporters of 
Kamerhe, supporters of Kabila. That is really the fundamental 
issue that we are looking at.
    I am sorry the other person left because everyone, it 
doesn't matter the ages or whatever, the aspirations I think 
are there to bring about a better tomorrow for the people as 
you, Congressman Payne, have always done throughout your time 
in Africa. And that is what we are trying to achieve here as 
well.
    Mr. Marino. In getting to closing here, what bang are we 
getting for our buck in the United States? And what other 
countries, and to what extent, are they contributing to these 
efforts?
    Mr. Baer. I should really let the bucks talk, but let me 
just say 20 seconds worth of framing. I think it is important 
to underscore the importance of the value of our investment in 
preserving stability in the places where stability is, and 
allowing the incremental progress and law enforcement and 
justice, and to remove investments would cause back sliding.
    And so I think it is often difficult to value, and no one 
wants to overvalue keeping the ball where it is on the field, 
but losing yardage is really expensive, and we are always 
trying to push it down the field. So I just want to underscore 
the importance of the investments we are making on things like 
building the judicial sector, helping train them to investigate 
SGBV, help reform the way they manage prisons. All those things 
are having an impact, even if the progress is still very 
incremental.
    Ms. Mendelson. It is absolutely critical that we not 
penalize the Congolese people because of the way in which 
elements of a government did or did not execute this election. 
So as we think about--compared to other parts of the continent, 
we have actually invested or are investing relatively little. 
And remarkably we have, as I think others have alluded to, 
small investments have yielded some very interesting results 
where, for example, working with citizens in local governments, 
having citizens hold accountable local governments to make sure 
their tax receipts are going to support what the authorities 
say they are supporting.
    I totally agree with the idea that going forward an 
emphasis on new--a new cohort and leadership is really 
critical, and I think that is true across the continent, I 
think it is true in this country.
    That is sort of--those two pillars of leadership in open 
government are ways in which we are doing what is usually 
called good governance work in a kind of 21st century way, 
layering on the use of technology and making sure citizens have 
voices. But it is really critical that we not--and of course 
you asked the question of bang for the buck, and the answer 
comes out that we are going to cut. We need to be thinking 
about how we support Congolese people going forward.
    Mr. Marino. Please keep a very, very stern eye on our tax 
dollars as if that money were coming out of your individual 
pockets, please.
    In my last question, in looking for a remark from you, what 
do we do about the Central African Republic coming over into 
the borders and kidnapping people; and even on the east, other 
countries coming in, the LRA? Be more specific, thank you--
going into the DRC and actually doing mining?
    Ambassador Yamamoto. That is again the hope that our 
Special Forces unit will bring as far as training and capacity 
building enhancement. More important is talking to our 
Ambassador Barrie Walhley in the area. He has been able to talk 
to the President and the people and work very closely with 
them.
    You know, as far as the number of attacks are way down in 
the area, the number of groups that are leaving the LRA to go 
to reconciliation has been up, and so I think that part has 
been a progress. You want to add to that?
    Mr. Baer. My only addition would be it continues to be a 
driving concern. The assistance we are giving in order to go 
after the LRA, the assistance in training is important and 
particularly important for the DRC, because even though the 
attacks are down, as the Ambassador said, down to 278 in 2011 
from 306 the year before, 86 percent of those attacks are 
happening in the DRC.
    Mr. Marino. Do any of my other colleagues have a comment or 
statement, please?
    Mr. Payne. I would just like to clarify what I was saying, 
that we need to have new, young, vision and ideas. I don't 
necessarily mean young in chronological age. I mean people who 
have a vision. What we need is a vision for the leadership of 
the Congo.
    I just want to say one final thing; that we are losing a 
very talented person who has been a very close associate of 
mine for the entire time I have been in the Congress, Ted 
Dagne. Ted is leaving the CRS to be a special envoy to the 
U.N., to the President of South Sudan and we--Ted and I have 
traveled maybe three dozen times to Africa. He knew every 
leader, he knew every rebel, he knew more rebels than leaders. 
And he would drag me into the rebel dens and we would be 
talking and discussing.
    We went to Congo, and we met with Kabila while Mobutu was 
still President. Of course, the State Department didn't like 
that. Do you remember that, Ambassador? He remembers.
    Ms. Bass. He shook his head.
    Mr. Payne. We have gone to the battlefields of South Sudan 
when Dr. Garang was leading his forces. We have been in Burundi 
meeting with the Hutus in villages. And in Rwanda, he has done 
more to stabilize Rwanda, South Sudan. I know of no other 
person who has dedicated himself and has really made a big 
difference to the lives of millions of people in Africa. And so 
we will certainly miss him, I will miss my traveling partner, 
but I want to say he was a tremendous asset to our country.
    Thank you, Mr. Chairman.
    Mr. Marino. You are welcome. I want to thank Chairman Payne 
and Congresswoman Bass for sticking this out with me. I want to 
thank our distinguished panel. It was very informative.
    Please see that you do get the documents and information to 
my colleagues for which they asked. I appreciate that very 
much. I thank the people sitting in here listening to this 
hearing, and it is again--after my trip, it is extraordinarily 
important that we know all these issues and make solid, 
concrete decisions. Thank you very much, and the hearing is 
adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Question submitted for the record by the Honorable Russ Carnahan, a 
  Representative in Congress from the State of Missouri, with written 
          response from the U.S. Department of State and USAID
Question:
    All Panelists: Last year, this Subcommittee fittingly held a DRC 
hearing on International Women's Day. As you know, the Administration 
recently announced the U.S. National Action Plan (NAP) on Women, Peace, 
and Security--the goal of which I wholeheartedly commend: ``to empower 
half of the world's population as equal partners in preventing conflict 
and building peace in countries threatened and affected by war, 
violence, and insecurity.''
    This marks an important step to realizing the goals of UN Security 
Council Resolution 1325 and subsequent resolutions, including 1888, 
1889 and 1960, which prioritize combating sexual and gender-based 
violence. The rampant and really unimaginable level of sexual violence 
in the DRC acutely shows why this initiative is so urgent. I'm hoping 
you will be able to put the NAP into the DRC's context.

        <bullet>  Please discuss the Administration's overarching 
        gender strategy in the DRC--from education and prevention, to 
        security sector and rule of law reforms to survivor treatment 
        and supporting women in civil society. Particularly, how are we 
        addressing the growing socialization of violence against women, 
        what are we doing to engage men and boys in this effort, and 
        how are we supporting the inclusion of Congolese women in 
        mediation and demobilization processes, and promoting their 
        overall advancement in society?
Answer:
    The United States government is dedicated to working toward greater 
empowerment of women in the Democratic Republic of the Congo (DRC) in 
all sectors of society--including in political, social, and economic 
realms--as a key to promoting peace and prosperity. To that end, we 
take gender into consideration when designing and implementing programs 
in all sectors in the DRC. Currently, the State Department and USAID 
are in the process of developing Agency-specific Women, Peace, and 
Security implementation plans as directed by the President's Executive 
Order 13595. These plans will incorporate time-bound, measurable, and 
resourced actions designed to meet the objectives established in the 
National Action Plan (NAP), including the engagement of women in peace 
building and political processes and the protection of women and girls 
from conflict-related violence and abuse. The State Department and 
USAID are working to ensure that agency implementation plans include 
effective, coordinated action at the country level in the DRC. These 
efforts are in support of the DRC's own National Action Plan on Women, 
Peace, and Security, which has outlined the government's commitment to 
promoting the crucial role of women in restoring and maintaining peace 
and security.
    The NAP is based upon five key pillars: institutionalizing a 
gender-sensitive approach to diplomatic, development, and defense-
related work in conflict-affected environments; encouraging the 
participation of women in peace processes and decision-making; 
strengthening the protection of women from violence; supporting the 
prevention of conflict; and increasing the emphasis on the needs of 
displaced women and girls in relief and recovery operations.
    Participation in Peace Processes and Decision-making--The United 
States has supported the DRC's efforts to emerge from conflict and 
realize a just and lasting peace based on democratic principles, 
governed by the rule of law, and respectful of human rights, including 
those of women and girls. In order for the DRC to progress, it is 
critical that Congolese women are empowered to be equal partners in all 
sectors. Our programs in the DRC support women's participation in 
democracy and governance programs, security sector training, and in 
education and economic initiatives.
    For example, the Department of State hosted a conference in October 
2011 to reinforce women's participation and engagement in the political 
process in the DRC, bringing together women in Congolese civil society, 
political party leaders, and influential actors in the women's rights 
field from across the provinces and Kinshasa, to share experiences and 
reinforce networks.
    Protection from Violence--The United States government is 
particularly concerned about the continuing high rates of sexual and 
gender-based violence (SGBV) throughout the DRC, including the use of 
mass rape as a weapon of war, the growing socialization of violence 
against women, and the need to engage men and boys in this effort. 
Ultimately, the responsibility for protecting civilians and holding 
perpetrators accountable belongs to the government of the DRC. We are 
working with government and non-government partners in the security, 
judicial, health, and education sectors to prevent and respond to SGBV.
    The U.S. government funds SGBV projects that provide critical care 
and treatment services (medical, psychosocial, legal, and economic) to 
survivors of SGBV and their families. A range of community mobilization 
and outreach activities are striving to transform the underlying 
attitudes and behaviors that perpetuate SGBV and increase awareness 
about its costs and consequences, including its relationship to HIV 
risk. These activities will also strengthen the capacity of social 
institutions, civil society organizations, and communities to respond 
to and ultimately end such violence.
    A key to SGBV prevention is holding perpetrators accountable and 
fighting impunity for these crimes. Establishing reliable judicial 
mechanisms is an essential first step. This includes ensuring 
witnesses, victims, and judicial officers are protected, which is 
critical to successful investigations and prosecutions. U.S.-funded 
judicial sector programs work to increase access to justice for 
vulnerable populations--including SGBV survivors--by providing legal 
aid through human rights organizations and by organizing mobile courts 
to improve access to more remote areas. We provide training to police, 
attorneys, health care workers, military justice personnel, and 
military commanders--just one of the ways we are engaging men in the 
effort to prevent SGBV. Our partners at the Department of Defense are 
helping to improve the security sector by providing support for 
infrastructure upgrades to facilities used by other service providers 
and by developing training modules for use by the Congolese military.
    Furthermore, the United States strongly supports the United Nations 
Organization Stabilization Mission in the DRC (MONUSCO) and its efforts 
to help the Congolese government bring peace and stability to the DRC. 
We encourage MONUSCO's efforts to effectively implement its mandate, 
including its innovative initiatives to protect civilians through Joint 
Protection Teams, Community Liaison Assistants, and Community Alert 
Networks, and we have provided resources for the MONUSCO-facilitated 
Prosecution Support Cells to investigate and bring to justice 
perpetrators of the most egregious crimes in eastern DRC, including 
SGBV.
    Conflict Prevention--The Department of State and USAID are 
promoting women's roles in conflict prevention, integrating gender 
perspectives into conflict early-warning and response systems, and 
investing in women and girls' health, education, and economic 
opportunity to create conditions for stable societies and lasting 
peace.
    The Department of State is strengthening early warning mechanisms 
by incorporating communications technology--including a reporting 
hotline, digital mapping, and video-conferencing--into current 
programming to increase civilian protection in eastern DRC.
    A new conflict management and mitigation program managed by USAID 
works with minorities and marginalized women to mitigate conflict, to 
address human rights issues (such as trafficking in persons and SGBV), 
and to support conflict prevention, early warning, and response 
activities. This initiative will also provide opportunities to advance 
women's economic empowerment through increased access to credit, 
livelihood training, and enterprise support activities.
    Additionally, a new USAID education initiative will seek to empower 
adolescent girls through education by providing access to a safe, 
enabling learning environment conducive to leadership skills 
development for positive participation in society.
    Access to Relief and Recovery--The United States government is 
responding to the distinct needs of women and children in conflict-
affected disasters and crises, including by providing safe, equitable 
access to humanitarian assistance.
    The U.S. supports partners, including a range of non-governmental 
organizations (NGOs), the UN refugee agency (UNHCR), and the 
International Committee of the Red Cross (ICRC), in efforts to prevent 
and respond to SGBV and to empower women affected by war in the DRC. 
UNHCR's program includes skills training, rights awareness, 
sensitization about laws and services, training of military personnel, 
provision of emergency shelter, and provision of medical and 
psychosocial support. NGO programs provide skills training, income-
generation assistance, and mental health services to survivors of SGBV 
and other vulnerable women; and engage communities, specifically men, 
to enhance protection and prevention of SGBV through community 
education and discussion groups.


 Material submitted for the record by the Honorable Donald M. Payne, a 
        Representative in Congress from the State of New Jersey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subcommittee on Africa, Global Health, and Human Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
